BUFF ONE VISA
F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee

13.99%
F2
This APR will vary with the market based on the Prime Rate.
13.99%
F3
This APR will vary with the market based on the Prime Rate.
15.99%
F4
This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

None
F5

3.00%
F6
of the amount of each balance transfer (Maximum Fee: $200.00
F7
)
1.00%
F8
of each multiple currency transaction in U.S. dollars
0.80%
F9
of each single currency transaction in U.S. dollars
Up to $15.00
F10
Up to $35.00
F11

How We Will Calculate Your Balance: We use a method called “average daily balance (excluding new purchases).”
Effective Date:
September 23, 2014 .
The information about the costs of the card described in this application is accurate as of F12
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Over-the-Credit Limit Fee

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

F13
$15.00 or the amount of the required minimum payment, whichever
is less, if you are ten or more days late in making a payment.
F14
$25.00 or the amount of the transaction exceeding your approved
credit limit, whichever is less. In the event you exceed your credit limit
in the same or in any of the six billing cycles following the initial
violation, you will be charged $35.00
F15
or the amount of the transaction
exceeding your approved credit limit, whichever is less.

10501861-MXC40-P-1-090414 (MXC403 CCM003)-e

